<html>
<title> - DIETARY SUPPLEMENTS: NATURE'S ANSWER TO COST EFFECTIVE PREVENTATIVE MEDICINE</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]




  DIETARY SUPPLEMENTS: NATURE'S ANSWER TO COST EFFECTIVE PREVENTATIVE 
                                MEDICINE

=======================================================================

                                HEARING

                               before the

               SUBCOMMITTEE ON HUMAN RIGHTS AND WELLNESS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 22, 2004

                               __________

                           Serial No. 108-270


       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
98-293                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
DAN BURTON, Indiana                  HENRY A. WAXMAN, California
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
MARK E. SOUDER, Indiana              CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
DOUG OSE, California                 DENNIS J. KUCINICH, Ohio
RON LEWIS, Kentucky                  DANNY K. DAVIS, Illinois
TODD RUSSELL PLATTS, Pennsylvania    JOHN F. TIERNEY, Massachusetts
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
ADAM H. PUTNAM, Florida              DIANE E. WATSON, California
EDWARD L. SCHROCK, Virginia          STEPHEN F. LYNCH, Massachusetts
JOHN J. DUNCAN, Jr., Tennessee       CHRIS VAN HOLLEN, Maryland
NATHAN DEAL, Georgia                 LINDA T. SANCHEZ, California
CANDICE S. MILLER, Michigan          C.A. ``DUTCH'' RUPPERSBERGER, 
TIM MURPHY, Pennsylvania                 Maryland
MICHAEL R. TURNER, Ohio              ELEANOR HOLMES NORTON, District of 
JOHN R. CARTER, Texas                    Columbia
MARSHA BLACKBURN, Tennessee          JIM COOPER, Tennessee
PATRICK J. TIBERI, Ohio              BETTY McCOLLUM, Minnesota
KATHERINE HARRIS, Florida                        ------
------ ------                        BERNARD SANDERS, Vermont 
                                         (Independent)

                    Melissa Wojciak, Staff Director
       David Marin, Deputy Staff Director/Communications Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
           Phil Barnet, Minority Chief of Staff/Chief Counsel

               Subcommittee on Human Rights and Wellness

                     DAN BURTON, Indiana, Chairman
CHRIS CANNON, Utah                   DIANE E. WATSON, California
CHRISTOPHER SHAYS, Connecticut       BERNARD SANDERS, Vermont 
ILEANA ROS-LEHTINEN, Florida             (Independent)
                                     ELIJAH E. CUMMINGS, Maryland

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
                      Mark Walker, Chief of Staff
                Mindi Walker, Professional Staff Member
                        Danielle Perraut, Clerk
          Richard Butcher, Minority Professional Staff Member


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 22, 2004...............................     1
Statement of:
    Coates, Paul, Ph.D., Director, Office of Dietary Supplements, 
      National Institutes of Health, U.S. Department of Health 
      and Human Services.........................................     9
    Dobson, Allen, Ph.D., senior vice president, the Lewin Group; 
      Jeffrey Blumberg, Ph.D., professor, Friedman School of 
      Nutrition Science and Policy, Tufts University; Barbara 
      Levine, R.D, Ph.D., associate professor of nutrition in 
      medicine, Weill College of Medicine; Elliott Balbert, 
      president, Dietary Supplements Education Alliance; and 
      Marilu Henner, actress, nutrition and diet expert..........    22
Letters, statements, etc., submitted for the record by:
    Balbert, Elliott, president, Dietary Supplements Education 
      Alliance, prepared statement of............................    59
    Blumberg, Jeffrey, Ph.D., professor, Friedman School of 
      Nutrition Science and Policy, Tufts University, prepared 
      statement of...............................................    42
    Burton, Hon. Dan, a Representative in Congress from the State 
      of Indiana, prepared statement of..........................     4
    Coates, Paul, Ph.D., Director, Office of Dietary Supplements, 
      National Institutes of Health, U.S. Department of Health 
      and Human Services, prepared statement of..................    12
    Dobson, Allen, Ph.D., senior vice president, the Lewin Group, 
      prepared statement of......................................    24
    Henner, Marilu, actress, nutrition and diet expert, prepared 
      statement of...............................................    65
    Levine, Barbara, R.D, Ph.D., associate professor of nutrition 
      in medicine, Weill College of Medicine, prepared statement 
      of.........................................................    50

 
  DIETARY SUPPLEMENTS: NATURE'S ANSWER TO COST EFFECTIVE PREVENTATIVE 
                                MEDICINE

                              ----------                              


                     WEDNESDAY, SEPTEMBER 22, 2004

                  House of Representatives,
         Subcommittee on Human Rights and Wellness,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:10 a.m., in 
room 2154, Rayburn House Office Building, Hon. Dan Burton 
(chairman of the subcommittee) presiding.
    Present: Representatives Burton and Watson.
    Staff present: Mark Walker, chief of staff; Mindi Walker, 
Brian Fauls, and Dan Getz, professional staff members; Nick 
Mutton, press secretary; Danielle Perraut, clerk; Sarah 
Despres, minority counsel; Richard Butcher, minority 
professional staff member; and Cecelia Morton, minority office 
manager.
    Mr. Burton. Good morning. A quorum being present, the 
Subcommittee on Human Rights and Wellness will come to order. I 
ask unanimous consent that all Members and witnesses' written 
and opening statements be included in the record. And without 
objection, so ordered.
    I ask unanimous consent that all articles, exhibits, and 
extraneous or tabular materials referred to be included in the 
record. Without objection, so ordered.
    In the event of other Members attending the hearing, I ask 
unanimous consent that they be permitted to serve as a member 
of the subcommittee for today's hearing. And without objection, 
so ordered.
    We have other Members that will be coming very shortly, Ms. 
Watson in particular. And for those who aren't here, they will 
get transcripts of the hearing.
    I, along with millions of Americans, firmly believe that 
dietary supplements have been shown through credible scientific 
research and historical use to be of immeasurable benefit to 
human health.
    As a regular consumer, I know firsthand the health benefits 
of using dietary supplements on a daily basis. Consequently I 
proudly serve as cochairman of the Congressional Complementary 
and Alternative Medicine Caucus, the CAM Caucus, along with my 
colleague, Representative Dennis Kucinich of Ohio, in the 
House, and Senators Orrin Hatch of Utah in the Senate, and Tom 
Harkin of Iowa in the Senate. They have been true champions on 
these issues for some time.
    Together we have worked hard, in a bipartisan fashion, for 
the continued research and safety of all dietary supplements 
manufactured and sold in the United States. It remains our top 
priority to ensure that only the highest quality of products 
are made available to the American consumers.
    Given my role as cochairman of the CAM Caucus, as well as 
my duties as chairman of the Subcommittee on Human Rights and 
Wellness, I am particularly concerned about how these products 
can be used as preventatives, and preventative measures, to 
combat the multitude of life-threatening and debilitating 
medical conditions like cardiovascular disease, cancer, 
osteoporosis, and even preventable birth defects in infants.
    The subcommittee has invited some of the foremost experts 
on nutrition to discuss the proven health benefits of regular 
supplement usage. Dr. Jeffrey Blumberg, professor at the 
Friedman School of Nutrition Science and Policy at Tufts 
University is with us today to explain the role of folic acid 
and other dietary supplements in the promotion of health and 
prevention of chronic diseases.
    The subcommittee also has the pleasure of hearing testimony 
from Dr. Barbara Levine, an associate professor of nutrition 
and medicine at the Weill College of Medicine at Cornell 
University, who will discuss two of the nutrients she has 
studied for a majority of her career, Omega-3 fatty acids and 
calcium. Dr. Levine will also explain how those two nutrients 
are needed throughout the entire life cycle in the development 
and growth of the human body, in addition to their use for 
prevention and treatment of a variety of diseases.
    In addition to the scientifically proven health benefits of 
using dietary supplements correctly to promote a healthier 
lifestyle and curb disease, these products can also offer 
substantial cost savings for our long-term national health care 
expenditures. And that is one of the things that isn't talked 
about enough.
    During our hearing today a new study will be released 
regarding the cost savings of dietary supplements on the U.S. 
health care system. Dr. Allen Dobson, senior vice president of 
the Levin Group, an independent health care consulting firm, is 
here with us today to discuss the conclusions of his study, 
which demonstrates that certain supplements provide an 
inexpensive and safe way to improve overall personal health and 
reduce health care expenditures.
    A recent report published by the Institute of Medicine 
[IOM], estimates that American consumers spend over $18 billion 
annually on the over 29,000 supplements sold in the United 
States. In 1994, Congress passed, and the President signed into 
law, the Dietary Supplement Health Education Act [DSHEA]. DSHEA 
prescribes the framework for how the Federal Government ensures 
the safety and the efficacy of dietary supplements sold in the 
United States.
    Prior to DSHEA, dietary supplements were treated and 
regulated as traditional food products. Seeing a need for the 
Federal Government to address the American consumer's growing 
interest in dietary products, in conjunction with public 
safety, Congress overwhelming passed this legislation to make 
certain that all dietary health products sold in the United 
States are held to the highest and most stringent quality 
standards.
    DSHEA ensures the safety of dietary supplements by 
requiring manufactures to follow standards called good 
manufacturing practices [GMPs]. Essentially all ingredients in 
supplements sold in the United States must be previously 
approved by the Food and Drug Administration and listed on the 
products bottle label. In addition, distributors must follow 
strict guidelines on all claims that are made in regard to a 
particular product. This ensures consumers are equipped with 
the most accurate information regarding their supplements.
    Dr. Paul Coates, the Director of the Office of Dietary 
Supplements at the National Institutes of Health [NIH], is here 
to talk about the Federal Government's research into dietary 
supplements and how these products have been shown to provide 
for a healthier lifestyle both in children and in adults.
    In addition, Mr. Elliott Balbert, the president of the 
Dietary Supplement Education Alliance, will be testifying 
before the subcommittee to discuss the supplement industry's 
efforts and continued support for the overwhelming need to 
ensure that consumers have access to balanced, science-based 
facts about dietary supplements.
    And, finally, we have the distinct pleasure of having a 
distinguished star of the stage and screen, whom I think is 
beautiful and have admired her for a long, long time, 
testifying before our subcommittee today. I saw her in Taxi a 
long time ago, and she looks so young, it just doesn't seem 
possible. Marilu Henner is here to talk about her personal 
experiences using dietary supplements in attaining and 
maintaining optimal health. Ms. Henner has not only personally 
benefited from supplement usage, but has also served as a 
health advocate, and is the author of six books on how to live 
a healthier lifestyle.
    Whether taking a multivitamin, herbal product or a 
specialty supplement, people can and do live healthier lives 
and save money in long-term health care costs by supplementing 
their diets.
    I would like to thank all of our witnesses for their 
participation in this hearing, and I look forward to hearing 
their testimony.
    [The prepared statement of Hon. Dan Burton follows:]

    [GRAPHIC] [TIFF OMITTED] T8293.001
    
    [GRAPHIC] [TIFF OMITTED] T8293.002
    
    [GRAPHIC] [TIFF OMITTED] T8293.003
    
    [GRAPHIC] [TIFF OMITTED] T8293.004
    
    [GRAPHIC] [TIFF OMITTED] T8293.005
    
    Mr. Burton. With that, we will start with Dr. Coates.
    Dr. Coates, if you would come forward and stand so I can 
swear you in, please.
    [Witness sworn.]
    Mr. Burton. Do you have an opening statement, Doctor?
    Mr. Coates. I do.
    Mr. Burton. If we could, I would like to try to admonish 
the witnesses to try to keep their statements to 5 minutes so 
we would have more time for questions if possible.

 STATEMENT OF PAUL COATES, Ph.D., DIRECTOR, OFFICE OF DIETARY 
SUPPLEMENTS, NATIONAL INSTITUTES OF HEALTH, U.S. DEPARTMENT OF 
                   HEALTH AND HUMAN SERVICES

    Mr. Coates. Thank you very much. Mr. Chairman, I am Paul 
Coates. I direct the Office of Dietary Supplements at the 
National Institutes of Health. I appreciate the opportunity to 
appear before you today to talk about NIH efforts and research 
on dietary supplements.
    I appeared before this committee 2 years ago to give you 
details about some key NIH initiatives and to highlight the 
opportunities as well as the challenges associated with 
developing strong science in the field of dietary supplements. 
These are products that are used widely by American consumers 
for their potential health benefits, often in combination with 
other lifestyle measures such as diet and physical activity. 
Their potential to improve health and to prevent disease has 
been realized when some have been put to modern scientific 
testing. Clear examples of this are folic acid, in the 
prevention of neural tube defects, and calcium to reduce the 
risk of osteoporosis.
    It is important to keep in mind, though, that others have 
not undergone rigorous scientific testing to establish their 
efficacy and safety. Some are currently under active 
investigation at the NIH, as I will mention in a moment.
    In the preamble, or in the invitation, you identified five 
supplements as being of particular interest today: folate, 
calcium, omega-3 fatty acids, glucosamine, and saw palmetto. I 
would like to give you a snapshot of some ongoing NIH-funded 
research efforts related to these ingredients.
    With respect to folate, NIH has funded and continues to 
fund considerable research examining its role in the prevention 
of chronic diseases such as cancer and heart disease. In 
addition to these many projects, which I would be pleased to 
share with you in more detail, I draw your attention to another 
current trial that looks at the impact of folate and other B 
vitamins on slowing the rate of cognitive decline in 
Alzheimer's disease.
    With respect to calcium, the NIH has a considerable 
investment in clinical research. In addition to the many 
studies supported by NIH over the years on calcium and bone 
health, one current trial that I would like to draw to your 
attention is a trial called supplemental calcium in overweight 
people, currently under way at the NIH to examine the effects 
of calcium supplementation on weight reduction.
    With respect to omega-3 fatty acids, the Office of Dietary 
Supplements has sponsored a series of evidence reports in 
collaboration with the Agency for Health Care Research and 
Quality, on the health effects of omega-3s for a number of 
conditions. One report in particular, the one on cardiovascular 
disease, concluded that there was substantial evidence for 
benefit of omega-3 fatty acids in the secondary prevention of 
heart disease, but that there was considerably less evidence 
for an effect on primary prevention; that is, in the general 
population.
    We view that as an opportunity, not a barrier, and as a 
result of this report, the National Heart-Lung and Blood 
Institute, along with the Office of Dietary Supplements, 
convened a working group earlier this year to assess future 
research needs related to coronary disease prevention with 
omega-3s. The working group recently made its recommendations, 
which are currently being pursued at the NIH.
    With respect to glucosamine, a clinical trial is currently 
under way looking at the effect of glucosamine and chondroitin 
sulfate for knee osteoarthritis. It has now met its recruitment 
goals of nearly 1,600 participants and scheduled to be 
completed within a year.
    Finally, a clinical trial of saw palmetto and African plum 
for urinary symptoms in men was recently funded and should 
provide some very informative results.
    I would like to comment at this point that the evidence for 
benefit is stronger for some of these supplements than it is 
for others. I would also like to point out that research 
efforts need to continue apace in all of these areas, and that 
NIH remains committed to encouraging and supporting the best 
science in this area.
    Between 1999 and 2003, the years for which we have these 
data, NIH invested roughly $770 million to support research 
related to dietary supplements. About a quarter of that was 
devoted to studies of the five supplement ingredients that I 
have cited above.
    Let me briefly tell you a little about the Office of 
Dietary Supplements. We were authorized by the Dietary 
Supplement Health and Education Act of 1994, and came into 
existence at the NIH in 1995. Our mission is to identify and 
foster research on the health benefits and the risks of 
supplements.
    We have a strategic plan in place, and I am pleased to 
announce that the strategic plan for the next 5 years has now 
been published, and it can be found on the Office of Dietary 
Supplements' Web site.
    As a result of increases in funding for the Office by 
Congress, from $3.5 million in 1999 to about $26 million year, 
we have expanded our role in a number of important activities. 
This year we cofund 90 research grants with other institutes at 
the NIH, and among those a number of dietary supplement 
research centers that we fund across the country that 
specialize in botanical dietary supplements.
    Let me give you four brief examples of other efforts that 
we do in collaboration with other agencies, both within and 
outside the NIH. The National Health and Nutrition Examination 
Survey looks at supplement use in a health context, and is 
conducted by the CDC. We significantly support that, along with 
collaborators at the FDA, the National Institute of Standards 
and Technology, and a number of private sector organizations, 
including the dietary supplement industry. We administer a 
program to develop, validate and disseminate analytical methods 
and reference materials for dietary supplements.
    And, finally, I wanted to mention that as part of our 
evidence-based review program, which we conduct in 
collaboration with the Agency for Healthcare Research and 
Quality, we have two others that are currently under way, two 
evidence reports, in addition to the omega-3 ones I cited. One 
is on vitamin D adequacy in health, and the other is on the 
role of antioxidants and B vitamins in the age-related 
neurodegenerative disorders. These are all collaborative 
efforts. It is a key way in which to get research done in this 
area, in my opinion.
    Mr. Chairman, I thank you for the opportunity to review the 
status of dietary supplement research at the NIH, and I would 
be happy to answer your questions.
    [The prepared statement of Mr. Coates follows:]

    [GRAPHIC] [TIFF OMITTED] T8293.006
    
    [GRAPHIC] [TIFF OMITTED] T8293.007
    
    [GRAPHIC] [TIFF OMITTED] T8293.008
    
    [GRAPHIC] [TIFF OMITTED] T8293.009
    
    [GRAPHIC] [TIFF OMITTED] T8293.010
    
    [GRAPHIC] [TIFF OMITTED] T8293.011
    
    [GRAPHIC] [TIFF OMITTED] T8293.012
    
    [GRAPHIC] [TIFF OMITTED] T8293.013
    
    Mr. Burton. Do you take supplements?
    Mr. Coates. That is a personal decision, and I do. But that 
doesn't extend beyond by personal decision.
    Mr. Burton. What does that mean?
    Mr. Coates. I am not in a position to make recommendations 
to others.
    Mr. Burton. I see. But you do take supplements.
    Mr. Coates. I take a multivitamin.
    Mr. Burton. Can you tell us a little bit about the risks 
associated by using dietary supplements, from your point of 
view?
    Mr. Coates. I can tell you some of the issues that are 
raised. One in particular is the possible interaction of 
certain dietary supplement ingredients and other bioactive 
ingredients that people take, either other supplements or 
drugs. Occasionally there have been identified risks associated 
with that. People need to know about the possible interaction 
among these biologically active constituents.
    Mr. Burton. But the labeling on the bottles pretty much 
tells people who are taking those to be careful or consult a 
physician in the event that they think that there might be some 
counteractive----
    Mr. Coates. Yes. That is certainly a goal for all of the 
potentially harmful interactions. I venture to say that we 
don't know everything that we need to know either about the 
benefits or the risks of dietary supplements, and our job is to 
try to identify those so that the best information can be made 
available to consumers.
    Mr. Burton. I see. But you don't see the need for the 
health agencies to take over complete control over supplements 
and all of that?
    Mr. Coates. I am not sure I understand that question.
    Mr. Burton. Well, there have been some people who thought 
that DSHEA was something that we should not have passed in the 
Congress, and some of our health agencies say that all 
supplements should be regulated. You don't agree with that?
    Mr. Coates. They are regulated.
    Mr. Burton. No. What I mean is they are not reviewed on a 
regular basis by the health agencies; i.e., Health and Human 
Services and FDA.
    Mr. Coates. I think it is the FDA's responsibility to 
regulate dietary supplements using the existing law.
    Mr. Burton. Using the existing law. But you don't think 
there needs to be any changes in that?
    Mr. Coates. The last time I testified here, Mr. Chairman, I 
think you asked me the same question, and I said that at the 
time that DSHEA was passed, that it was an effective and 
appropriate way to look at dietary supplements.
    Sometimes things change. I think we have learned a lot 
about dietary supplements, and I am not advocating that there 
be any change. But I do think that it is appropriate for people 
to examine periodically what they are doing.
    Mr. Burton. But you are not advocating any change right 
now?
    Mr. Coates. That is not my position.
    Mr. Burton. Good.
    In your opinion, how has the passage of the dietary 
supplement--or DSHEA affected the FDA's enforcement powers over 
dietary supplements?
    Mr. Coates. This is a tricky question for me to answer, 
since I am not in the FDA, and I am in a sister agency, and I 
don't know that I have any information that I can bring to bear 
on your question.
    Mr. Burton. OK. Could you please inform the subcommittee 
where you believe the issue of dietary supplements will be in 5 
years if the funding for these research initiatives remain 
consistent or constant?
    Mr. Coates. Thank you for--there is a question that I am in 
a much better position to be able to answer, since it relates 
to the research efforts, which really is what I do.
    I think we are in a position where we can provide an 
enormous amount of information to American consumers about 
dietary supplements. There is a lot that still needs to be 
done.
    What we understand about dietary supplements is quite 
variable. For some, we have very clear evidence of benefits. We 
also understand those circumstances in which individuals may be 
at risk, given exposure to certain supplements under some 
conditions. It is such a large body of knowledge that needs to 
be addressed. I think you alluded to the idea that there are 
29,000 or so products in the marketplace. They are not, of 
course, all different from one another in terms of the 
ingredients.
    But there is a lot that remains to be done, and I think it 
is incumbent upon us as a research agency to invest as much as 
we can in developing the right data set to inform consumers.
    Mr. Burton. Ms. Watson, I am sure, has questions. Would you 
be willing to have her submit those to you for the record, 
because she is not here. She had to go to a Democrat get-
together, I guess, and she is in the front row, and she can't 
leave right now. But she will be here shortly, so we will have 
her submit those to you.
    Mr. Coates. Thank you. I will be here for the rest of the 
hearing.
    Mr. Burton. Oh, good. Thank you. I am glad you decided to 
stay. I wish we had more government agencies that were willing 
to do that.
    Mr. Burton. OK. Our next panel is Allen Dobson, Ph.D., 
senior vice president of the Lewin Group. Would you come 
forward, Mr. Dobson.
    Jeffrey Blumberg, Ph.D., professor at Friedman School of 
Nutrition Science and Policy at Tufts University; Barbara 
Levine, R.D., Ph.D., associate professor, nutrition in 
medicine, Weill College of Medicine, Cornell University; 
Elliott Balbert, president of the Dietary Supplement Education 
Alliance; and the ever popular Marilu Henner, TV and movie 
star, actress, author, and health advocate, and author of six 
books. I will have to read one of your books.
    Would you all please rise so we can have you sworn.
    [Witnesses sworn.]
    Mr. Burton. Dr. Dobson.

 STATEMENTS OF ALLEN DOBSON, Ph.D., SENIOR VICE PRESIDENT, THE 
   LEWIN GROUP; JEFFREY BLUMBERG, Ph.D., PROFESSOR, FRIEDMAN 
   SCHOOL OF NUTRITION SCIENCE AND POLICY, TUFTS UNIVERSITY; 
BARBARA LEVINE, R.D, Ph.D., ASSOCIATE PROFESSOR OF NUTRITION IN 
     MEDICINE, WEILL COLLEGE OF MEDICINE; ELLIOTT BALBERT, 
 PRESIDENT, DIETARY SUPPLEMENTS EDUCATION ALLIANCE; AND MARILU 
           HENNER, ACTRESS, NUTRITION AND DIET EXPERT

    Mr. Dobson. Mr Chairman, my name is Allen Dobson. I'm am a 
senior vice president for the Lewin Group. Thank you for the 
opportunity to present key findings of a study that the Lewin 
Group has conducted for the Dietary Supplement Education 
Alliance.
    The purpose of the study was threefold: to critically 
review the research evidence for five specific dietary 
supplements, to estimate changes in health care utilization and 
the associated health care expenditure savings that could 
result from the daily use of two of these supplements, and then 
for the other three supplements to recommend research that 
might be done in the future.
    The five supplements that were covered in this study, 
calcium with vitamin D, folic acid, omega-3 fatty acids, 
glucosamine and saw palmetto, the Lewin Group developed 
estimates of potential cost savings that could result from the 
daily use of only two of these supplements for which the higher 
standard of evidence exists at this time. In effect, what we 
are doing is we were moving beyond the research and the 
literature, which speak to the efficacy of the supplements, and 
speaking to their cost-effectiveness in society. That is to 
say, if they are used appropriately, what savings might accrue 
to both the individuals and society? So in that sense the study 
results that we are presenting today are new.
    Cost estimates were developed for calcium with vitamin D 
and folic acid where in each case there is significant 
scientific agreement as to the improvement in health status. 
For these two supplements, conservative estimates for health 
care expenditure savings were developed for specific relevant 
outcomes.
    Dr. Devonso, my colleague, and I were very conservative in 
our approach to building the cost estimates. We only went to 
those supplements that had the most strong scientific evidence, 
and when we did our costing, we only looked at a few of the 
possible areas where cost savings might exist.
    As Dr. Coates has indicated, for instance, for calcium, 
there is many areas where it will be effective, but we only 
looked at a few specific areas where the evidence was 
strongest. That is to say for calcium, we estimated savings for 
avoided hip fractures for over age 65; and for folic acid, we 
looked at avoided incidences of babies being born with neural 
tube defects.
    In terms of our key findings for calcium, for a daily 
intake of 1,200 milligrams of calcium D, calcium with vitamin 
D, could result in 734,000 fewer hip fractures for the 
population aged 65 and over. We estimated that would save about 
$13.9 billion over a 5-year period. We used the CBO-type 
scoring procedures, which you are familiar with, because CBO 
scores all of our budgetary items for you. We tried to use 
their procedures because they are well known and fairly 
conservative in their approach, and subject to much scrutiny, 
and we feel that those kinds of procedures are the appropriate 
ones to use.
    We looked at net savings in hospital, nursing facility and 
physician expenditures. There again, we could have added more 
expenditures to the list, but we felt we would take the biggest 
ones and the least controversial with respect to hip fractures.
    Over one-third of adults over age 65 experience falls each 
year. Hip fractures caused the most severe health problems and 
the greatest number of deaths. So not only are we looking at 
cost savings here, we are looking at improved health and 
people's status in terms of feeling better. When you have a 
broken hip and you are over 65, it is not a good condition to 
be in. If we can avoid that, not only do we save money, but we 
improve people's health status enormously.
    In terms of folic acid, there are 64 million women of 
child-bearing years in the United States. Again, we were 
conservative, and we said if an additional 10.5 million, or 25 
percent of those not currently taking folic acid, begin to take 
400 micrograms of folic acid on a daily basis, we estimated 
that 600 babies would be born without neural tube defects. Our 
savings over 5 years, using the CBO estimates again, were about 
$1.3 billion. Again, these are conservative, because we only 
took 25 percent.
    The problem here is not so much the effects of the 
supplement itself, but getting people to take the supplements. 
And the recommendation here, of course, would be that we do a 
lot as a society, much more as a society, to get people to 
understand both the benefits of taking the supplement and the 
risk of not taking it, which are enormous.
    For omega-3 fatty acids, we found that there was a lot of 
evidence. As we heard from Dr. Coates, a lot of it is good. But 
the evidence wasn't quite strong enough to do our cost 
estimates. And as Dr. Coates indicated, the government is under 
way taking studies where perhaps we will have stronger evidence 
in the future.
    Similarly with glucosamine and saw palmetto, we found that 
the evidence was strong, it was encouraging, but it wasn't 
quite up to the rigor that we would like before we did our cost 
studies. So for those two studies, we note that the government 
is undertaking again, and already under way, very large double-
blind, placebo controlled studies, which should provide us the 
evidence in the future with which we can proceed with cost 
studies.
    In closing, I would like to note that the typical American 
diet does not always provide a sufficient level of nutrients to 
support optimal health, very much as you said in your 
introductory comments, and then that would be the overall 
conclusion of this; that is, in certain instances, supplements 
are an inexpensive and safe way to improve health status and 
reduce health care expenditures, and in these cases the role of 
public policy to support their use is unambiguous.
    I would thank you for the opportunity to present these 
findings from the Lewin Group study. Thank you.
    Mr. Burton. Thank you, Doctor.
    [The prepared statement of Mr. Dobson follows:]

    [GRAPHIC] [TIFF OMITTED] T8293.014
    
    [GRAPHIC] [TIFF OMITTED] T8293.015
    
    [GRAPHIC] [TIFF OMITTED] T8293.016
    
    [GRAPHIC] [TIFF OMITTED] T8293.017
    
    [GRAPHIC] [TIFF OMITTED] T8293.018
    
    [GRAPHIC] [TIFF OMITTED] T8293.019
    
    [GRAPHIC] [TIFF OMITTED] T8293.020
    
    [GRAPHIC] [TIFF OMITTED] T8293.021
    
    [GRAPHIC] [TIFF OMITTED] T8293.022
    
    [GRAPHIC] [TIFF OMITTED] T8293.023
    
    [GRAPHIC] [TIFF OMITTED] T8293.024
    
    [GRAPHIC] [TIFF OMITTED] T8293.025
    
    [GRAPHIC] [TIFF OMITTED] T8293.026
    
    [GRAPHIC] [TIFF OMITTED] T8293.027
    
    [GRAPHIC] [TIFF OMITTED] T8293.028
    
    [GRAPHIC] [TIFF OMITTED] T8293.029
    
    Mr. Burton. We didn't get into any other--they only asked 
you about those five products?
    Mr. Dobson. Yes.
    Mr. Burton. Didn't get into vitamin C or any of the others?
    Mr. Dobson. No. We took the five--we knew there was a great 
deal of literature out there, and we wanted to look at those 
cases where we thought we had the best case to move beyond the 
studies of efficacy and impact on health and move into cost 
savings. So we felt that we would look at those where the 
literature in come cases is 30 and 40 years in length.
    Mr. Burton. OK.
    Dr. Blumberg.
    Mr. Blumberg. Good morning. I am a professor of nutrition 
at the Friedman School of Nutrition Science and Policy, and the 
associate director of the Jean Mayer USDA Human Nutrition 
Research Center on Aging at Tufts University in Boston. I also 
serve as a nonpaid member of the Scientific Advisory Board of 
the Dietary Supplement Education Alliance. I have been 
investigating the role of dietary supplements in the promotion 
of health and prevention of chronic disease for almost 25 
years.
    It is now indisputable that nutrition is a key component of 
any disease-prevention strategy, and optimal intakes of 
vitamins, minerals, and other nutrients are critical to 
maintaining wellness. Virtually every nutrition-monitoring 
survey reveals that most Americans fail to achieve these 
intakes through their usual diets. Fortunately, dietary 
supplements represent an affordable, effective and practical 
tool to help solve this problem, and thus ultimately reduce 
health care costs.
    This morning I will illustrate this principle with the 
example of folic acid. Folic acid is a B vitamin essential to 
the activity of more than a dozen enzymes, amino acid 
metabolism, and DNA formation. Inadequate intake of folic acid 
has been associated with anemia, some forms of cancer, heart 
disease, poor pregnancy outcomes, and birth defects, most 
notably neural tube defects, but also including cleft lip and 
palate, limb deficiencies and defects of the heart.
    The richest dietary sources of folic acid are liver, 
mushrooms, dried beans, green leafy vegetables, and, since 
1998, enriched grains fortified with this vitamin.
    The recommended dietary allowance for folic acid is 400 
micrograms daily. Usual intakes of folic acid before 
fortification were 200 micrograms, but are now estimated to be 
about 300 micrograms, with much lower intakes in people 
following low-carbohydrate diets and avoiding fortified breads 
and other cereals.
    However, it is important to understand that many people 
have a greater need for folic acid, including pregnant and 
lactating women, people who consume alcoholic beverages or take 
certain medications, patients with certain inflammatory 
conditions of the intestines, and the elderly.
    For the last 5 years, the Center for Disease Control and 
Prevention and the Institute of Medicine have recommended that 
all women capable of becoming pregnant should consume 400 
micrograms per day of synthetic folic acid from supplements or 
fortified foods, in addition to consuming food folate from a 
variety of dietary sources. Nonetheless, two-thirds of American 
women of child-bearing age do not follow this advice, and 1 of 
every 1,000 babies in the United States is born with a neural 
tube defect.
    The Lewin Group analysis which you just heard about 
calculated that over the next 5 years, $1.3 billion in health 
care costs could be saved if these women took a daily 
supplement containing 400 micrograms of folic acid, but folic 
acid supplements are not just for women. Observational studies 
consistently reveal that men and women taking supplements 
containing folic acid have the lowest blood levels of the amino 
acid homocysteine. Elevated levels of homocysteine are a 
significant independent risk factor for atherosclerotic 
vascular disease and for thromboembolism. Some evidence 
suggests that lowering homocysteine levels could reduce the 
risk of heart disease by 20 percent. Many studies reveal that 
elevated homocysteine may enhance the effect of other 
established vascular risk factors such as hypertension and 
smoking.
    Folate inadequacy also has a procarcinogenic effect by 
interfering with normal DNA synthesis and regulation. An 
increased risk for some forms of cancer has been associated 
with poor folate status in several epidemiological studies, 
with the strong evidence linked to colorectal cancer.
    Studies have also suggested that the increased risk of 
breast cancer associated with regular alcohol consumption may 
be reduced by an increased intake of folic acid from dietary 
supplements.
    While many different factors contribute to the risk of poor 
health and chronic disease, we know that diet and the intake of 
specific nutrients play a key role in the prevention of cancer, 
diabetes, heart disease, infectious diseases, macular 
degeneration, osteoporosis and other conditions.
    The power of nutrition to promote health is well 
established. We need now to find ways to encourage Americans to 
choose helpful dietary patterns and increase their intake of 
key nutrients with fortified foods and dietary supplements. If 
we succeed in doing so, both the personal burden of disease 
carried by Americans and the associated enormous expenditure 
for their health care will be substantially reduced. Thank you.
    Mr. Burton. Thank you, Dr. Blumberg.
    [The prepared statement of Mr. Blumberg follows:]

    [GRAPHIC] [TIFF OMITTED] T8293.030
    
    [GRAPHIC] [TIFF OMITTED] T8293.031
    
    [GRAPHIC] [TIFF OMITTED] T8293.032
    
    [GRAPHIC] [TIFF OMITTED] T8293.033
    
    [GRAPHIC] [TIFF OMITTED] T8293.034
    
    [GRAPHIC] [TIFF OMITTED] T8293.035
    
    Mr. Burton. Dr. Levine.
    Ms. Levine. Good morning, Chairman Burton. I am Barbara 
Levine, associate professor of medicine at Weill Cornell 
Medical College, as well as the head of clinical nutrition at 
Strang, which is part of Cornell Medical College, as well as 
the Rockefeller University.
    It is a great honor to be able to address you about the 
importance of the nutritional health of Americans. More 
specifically, I will be discussing two nutrients I have studied 
for most of my career. The first nutrient is calcium, which is 
found in every cell of the body. Calcium is essential for bone 
development and growth, and in the protection of the human body 
through all stages of life.
    Prolonged low calcium intake has been linked to the 
development of several chronic diseases, including colon 
cancer, hypertension and osteoporosis, and we have to remember 
that we reach our peak bone mass really at around age 20, and 
then bone resorption will really exceed bone formation, so that 
it is very important for us to get enough calcium very early on 
in life, but continue to get the calcium we need throughout our 
life so that we don't lose more bone than we make.
    It is generally accepted that the ideal method for 
obtaining calcium is through regular dietary sources. 
Unfortunately, meeting the recommended daily intake of calcium 
has proven to be difficult for the average American, as 
evidenced by the low percentage of individuals actually meeting 
recommended calcium intake levels on a continuing daily basis.
    In the recent National Health and Nutrition Examination 
Survey, it was reported that the average intake of calcium for 
women, for example, age 40 and over, was only 698 milligrams 
per day. This is well blow the 1,200-milligrams-per-day calcium 
intake recommended for postmenopausal women, and illustrates 
the overall need to encourage calcium supplementation.
    And this is true for men as well, as we know that women 
generally experience fractures earlier on because of 
postmenopause, but men catch up in the sixth decade of life and 
will experience hip fractures as well.
    Not only can calcium supplements help to increase the 
intake of calcium among our population, but also the resultant 
disease prevention can help cut health care costs 
substantially.
    The second nutrient I will discuss today is actually part 
of a group of nutritional components, the much-heralded omega-3 
fatty acids. This group has a major role in the maintenance of 
cardiovascular health, development of the nervous system and 
other key functions. As was mentioned today, there is more 
evidence in the secondary prevention of the omega-3 fatty 
acids, which include DHA, docosahexaenoic acid, and 
eicosapentaenoic acid.
    But we just finished, and I will have the results at the 
Rockefeller University, a primary prevention study with DHA in 
patients that are overweight and have the syndrome called 
metabolic syndrome. So they are overweight, they have high 
triglycerides, they generally have insulin resistance, and we 
will get you that information as soon as possible.
    But the role of omega-3 fatty acids and cardiovascular 
function has been studied for the last 40 years. I would like 
to commend the American Heart Association for its recent 
Scientific Statement on Fish Consumption, Fish Oil, Omega-3 
Fatty Acids and Cardiovascular Disease. This statement confirms 
the importance of long-chain omega-3 fatty acids, both DHA and 
EPA, for their significant role in the reduction of cardiac 
death. DHA recommends that patients with coronary disease and 
hypertriglyceridemic patients, that is with the high 
triglycerides, consume DHA and EPA as part of their medical 
management.
    As just another example of the importance of omega-3 fatty 
acids, research has found that DHA is particularly vital for 
pregnant and lactating women because it plays a critical role 
in supporting brain and retinal development in infants. A 
recent workshop supported by NIH recommends 300 milligrams of 
DHA a day for pregnant and nursing women to promote optimum 
neurological development and visual acuity in their babies.
    As I mentioned in my discussion of calcium, despite our 
best intentions, the nutritional health of our Nation remains 
suboptimal. The principal dietary source of omega-3 fatty acids 
is coldwater fish like salmon and trout. However, both the 
United States Food and Drug Administration and the 
Environmental Protection Agency has recently scrutinized 
certain fish, such as shark, swordfish and fresh frozen tuna, 
for having potentially high levels of methyl mercury. And the 
Heart Association tempers its recommendations to increase DHA 
and EPA intake by stating that the availability of high-quality 
omega-3 fatty acid supplements, free of contaminants, is an 
important prerequisite to their extensive use. This is even 
more important for pregnant and lactating women who would 
benefit from DHA. These are a clear example of the benefits of 
supplementation which can provide high-quality omega-3 without 
contamination.
    I thank you for the opportunity to speak to you about these 
important nutrition issues. Thank you, Mr. Chairman.
    Mr. Burton. Thank you.
    [The prepared statement of Ms. Levine follows:]

    [GRAPHIC] [TIFF OMITTED] T8293.036
    
    [GRAPHIC] [TIFF OMITTED] T8293.037
    
    [GRAPHIC] [TIFF OMITTED] T8293.038
    
    [GRAPHIC] [TIFF OMITTED] T8293.039
    
    [GRAPHIC] [TIFF OMITTED] T8293.040
    
    [GRAPHIC] [TIFF OMITTED] T8293.041
    
    Mr. Burton. You know, before we go to the next witness, I 
always find it very interesting that the EPA is talking about 
being very careful about how much fish we eat that might have 
mercury in it, because the environment has been contaminated 
with mercury, you know, and yet most of the adult shots that we 
get, where we get a vaccination, contain mercury. They have 
that in there as a preservative.
    I mean, they will tell you not to eat it, but when you go 
to get a tetanus shot or a flu shot, they are going to stick 
mercury in your body. They say it doesn't hurt anything. And we 
have a huge increase; we have gone from 1 in 10,000 children 
that are autistic to 1 in 166. We have an epidemic of 
Alzheimer's. And we know that mercury causes neurological 
problems, and yet our health agencies--I know the gentleman is 
here from a health agency. I don't know if he is going to carry 
this message back, but it just seems reasonable to me that 
maybe we ought to get mercury out of these shots. Just get it 
out of there. Hell, if we can't eat it, we sure don't want to 
have it stuck in our bodies.
    Anyhow, Mr. Balbert.
    Mr. Balbert. Chairman Burton and members of the committee, 
thank you for the opportunity to address you as a 
representative of the dietary supplement industry.
    I am Elliot Balbert, CEO of Natrol, Inc. Natrol is a 
diversified nutrition company and manufactures and markets 
premium-branded nutritional products for a wide range of 
consumer needs.
    While running Natrol is obviously an important and central 
role for me, I am here in another capacity, as chairman of a 
not-for-profit group, the Dietary Supplement Education Alliance 
[DSEA]. DSEA was created in 2001 as a way for my industry to 
help ensure that the intent of the Dietary Supplement Health 
and Education Act [DSHEA], is met by providing meaningful 
information about the health benefits and responsible use of 
dietary supplements to all Americans.
    As you well know, Mr. Chairman, an important aspect of the 
passage of this critical law was to ensure that all of us as 
potential consumers of dietary supplements were educated about 
them, the very reason for the E in DSHEA. For that reason, 
those of us involved in DSEA have worked over the past 3 years 
to educate the public, the media, and even Members of Congress 
and their staffs through our Web site, supplementinfo.org, and 
other educational activities and means.
    In fact, one of our ongoing educational efforts is a 
monthly mailing to Members of Congress, where we strive to 
provide those of you on the Hill with essential information on 
the benefits of supplements. This may be a familiar package 
that you have seen.
    Mr. Burton. Do those contain supplements?
    Mr. Balbert. Yes, they do. I can show you that if you would 
like to see those.
    Mr. Burton. No, just keep sending them.
    Mr. Balbert. Our pleasure.
    Mr. Burton. I don't want to interrupt your testimony, but 
something very humorous is I take so many supplements that I 
don't eat anymore. There is no more room for food. It is 
supplements and more supplements. I wish somebody would tell me 
what I really--I know I need vitamin C and E and all of this, 
but I wish somebody would say, Danny--that is me--this is what 
you ought to take every day. But everybody that I know that 
knows that I am very concerned and want to make sure that the 
supplement industry does very well, because I believe very 
strongly in it, as you know, as the chairman of the caucus, but 
there has to be a limit to how much of this stuff I can take. I 
know I am going to live to be 170, but I would like to know if 
I can cut down a little bit, because I am afraid if I stop 
taking this, I am making a mistake and so forth.
    So somebody needs to write me a letter and say, OK, this 
what you ought to take. Marilu, maybe it is you.
    Ms. Henner. I have it.
    Mr. Burton. I may read your book. I want you to keep me 
young. I am 29 now, but I want to stay there.
    Ms. Henner. You only look 27.
    Mr. Burton. I love you. I love you.
    Go ahead, Mr. Balbert.
    Mr. Balbert. Well, before I continue, Mr. Chairman, we want 
to thank you on behalf of the industry for single-handedly 
supporting the ongoing efforts to help educate folks.
    As a representative of DSHEA, I have three important points 
to make here, and I will be brief. First, as you have heard 
from Dr. Blumberg and Dr. Levine, dietary supplements have been 
shown to be safe and effective aids for maintaining health and 
supporting overall wellness.
    Just think about the implications of this on the human 
level. Dietary supplements can help prevent a life of 
disability due to neural tube defects. Dietary supplements can 
enable senior citizens to live fuller lives without the 
disability of a broken hip. Dietary supplements can help active 
adults have less discomfort from arthritic knees.
    The potential goes on and on. And how do you put a dollar 
and cents value on the quality of life? You simply cannot. This 
isn't a matter of statistics. It is the ability to lead 
healthy, happy lives.
    Second, these relatively inexpensive supplements can help 
our country with the critical issue of managing health care 
costs. One of the most pressing problems confronting the United 
States today is the spiraling cost of medical health care. That 
is no mystery, and as you heard from Dr. Dobson, just two 
dietary supplements examined in the study could provide--I 
don't know if we fully grasped his statement--just two, just 
two dietary supplements examined in this study could provide 
over $15 billion in savings over the next 5 years. That is two.
    We have a critical crisis going on in our health care 
system, and we are talking about food supplements that can help 
reduce health care costs, and we are not even talking about the 
value of the quality of life.
    Third, to take advantage of health-promoting and cost-
savings potential of supplements, people need accurate, 
science-based information about dietary supplements and access 
to them. To ensure that dietary supplements get the research 
attention they deserve, ongoing support from the Office of 
Dietary Supplements [ODS], Mr. Coates's office, and the 
National Center for Complementary and Alternative Medicine 
[NCCAM], is essential.
    We would urge members of your committee to strive to find 
ways to increase funding to these government bodies. We are 
confident that more extensive research will only further 
support the benefits, safety, effectiveness, and cost savings 
we are hearing about in this panel today.
    To promote education about supplements, full implementation 
of the Dietary Supplement Education Act is important. Chairman 
Burton, we applaud your recognition of this critical aspect; on 
behalf of the industry, praise your efforts to achieve this 
goal by your introduction of H.R. 4760, which I wholeheartedly 
support.
    I believe there is more that can and should be done to 
ensure that consumers have access to balanced, science-based 
facts about dietary supplements so they may make informed 
decisions about achieving and maintaining optimum health. That 
is really what this is all about.
    To ensure even greater access to supplements, bills like 
your Tax Fairness Act are critical and represent legislation we 
endorse. The Tax Fairness Act would allow taxpayers to deduct 
amounts paid for foods for specialty dietary uses, dietary 
supplements or medical foods as medical expenses, thereby 
fairly putting supplements on par with other health benefits.
    Likewise, the ability of food stamp recipients to use their 
benefits to purchase dietary supplements. Food stamps can be 
used to buy Twinkies, but they can't be used to buy dietary 
supplements.
    As you and others have proposed in the past, Mr. Chairman, 
this is an idea we hope you and others will pursue.
    In closing, I would like to point out although many 
congressional hearings focus on what is wrong, hearings like 
this provide encouragement to continue doing what is not only 
right, but cost-effective, too. I want to thank the chairman 
and others on the subcommittee for taking the time address to 
the positive aspects of dietary supplements. Thank you, sir.
    Mr. Burton. Thank you.
    [The prepared statement of Mr. Balbert follows:]

    [GRAPHIC] [TIFF OMITTED] T8293.042
    
    [GRAPHIC] [TIFF OMITTED] T8293.043
    
    [GRAPHIC] [TIFF OMITTED] T8293.044
    
    Mr. Burton. And I do take a myriad of supplements, but, 
like I said, I think that might be one of the problems with a 
lot of people, because there are so many supplements that are 
available in the marketplace to take care of a myriad of 
problems that you sometimes wonder, you know, if you are--if 
you are taking too many, or if you are not taking enough.
    So I am going to read Ms. Henner's book, I have it right 
here. She looks awful nice. Does this tell me how to do that?
    Ms. Henner. Sure. If not, I will give you my e-mail 
address, and I can send you a lot of information.
    Mr. Burton. Gosh, that would be great. I would love just to 
converse with you. You are a lovely lady. OK.
    Ms. Henner. Well, thank you so much.
    Well, Chairman Burton, good morning, and members of the 
committee. I am Marilu Henner, actress, author, concerned 
mother, and health advocate. As a consumer who recognizes the 
value of dietary supplements, I thank you for the opportunity 
to speak here today.
    I would like to provide testimony on why I believe it is 
important for consumers to have information about dietary 
supplements and to have access to supplements through their 
government and private health plans. The information and access 
is important in order to help people make better decisions and 
lead healthier lives than is possible through a healthy diet 
alone. I mean, that is why I believe dietary supplements should 
be part of a campaign to improve our Nation's health.
    Now, I feel qualified to say that, because I am not only 
the author of six best-selling books promoting health and 
nutrition and a healthy lifestyle, but I am also one of the 
healthiest eaters in Hollywood; that is, according to a few 
magazines. Which isn't saying much, because everybody is on 
that crazy low-carb phase except me.
    Anyway, I believe that healthy food without dietary 
supplements is not enough, because it is not always possible to 
get everything we need from our food, no matter how carefully 
we plan our diet. We eat in restaurants, we eat on airplanes, 
we eat in school lunch programs, etc.
    But before I get into my personal story, I would like to 
talk first about the need for information. According to the 
Centers for Disease Control, approximately 400,000 Americans a 
year die as a result of an unhealthy diet and a sedentary 
lifestyle. While I personally think the estimate is low, it is 
high enough for us to recognize that something must be done to 
get people moving and eating better.
    As the waistline of the average American continues to 
expand, illnesses related to obesity, such as diabetes and 
heart disease, are reaching epidemic proportions. People are 
stuffing themselves with processed foods and fast foods and 
junk foods, while they are literally starving their bodies of 
the nutrients they need.
    The solution for too many people is fad diets that only 
perpetuate their unhealthy eating habits. As I have described 
in several of my books, I was raised on the standard American 
diet and spent many years dieting as I tried to control my 
weight. I actually weighed 54 pounds heavier than I do right 
now. Big change. The result, of course, was that I was 
consistently in bad health and never could control my weight 
eating that way. Both of my parents died in their fifties of 
diseases associated with poor diet. As I have since learned, my 
father's heart disease could have probably been mitigated using 
vitamin E and omega-3 fatty acids, and the severity of my 
mother's arthritis could have been alleviated using calcium 
and/or glucosamine.
    I have had my own experiences with calcium. I have not had 
a dairy product in 26 years. I take a calcium supplement. I had 
a bone density test recently. I am the 104th percentile for a 
woman my age. I am 52. I was in the 97th to 99th percentile for 
a woman 18 to 25, and this is--I had a mother who died of 
arthritis. So I know that a calcium supplement can definitely 
help, and, you know, coupled with a very healthy diet of leafy 
greens, etc., salmon.
    My parents' deaths were the impetus for my never-ending 
quest for better health for myself, my siblings, my children 
and anyone else who would listen. My journey to good health 
took many years. Mine was a story of trial and error, because 
it was so difficult in the 1970's and 1980's to find 
information about optimizing health through diet and 
supplements. There is more information now than ever before 
about health, but unfortunately the same chatter about fad 
diets and miracle drugs drowns out the sound information that 
people should be getting.
    I believe that people are ready to take the right steps 
toward becoming healthy, but without the proper guidance and 
the support of their insurance providers, health organizations 
and the Federal Government, they will continue to be led into 
to seeking false solutions. One of my goals as an author is to 
show people the way to optimize their health by encouraging 
them to disregard false solutions such as drastic weight loss 
with no sacrifice, or better health through miracle pills. I 
really do believe it is about changing the palate of America.
    Through my many personal appearances advocating good 
health, my books and my Web site at marilu.com, I come into 
contact with and mentor thousands or people who are on their 
own quest for good health. I hear many personal accounts of how 
people have turned their lives around from debilitating illness 
to vibrant health when they get information needed to make 
choices, to make good choices, and by good choices I mean 
specifically rejecting the manufactured foods of our society 
with their overreliance on sugar, meat and dairy, and the 
chemical, hormones and steroids that usually accompany these 
products. Instead we should be moving toward an organic, plant-
based diet that produces a sense of physical well-being, and 
also a healthy diet that includes the use of appropriate 
dietary supplements.
    Finally, I would like to describe why I think it is 
important to have access to dietary supplements. Eleven years 
ago when I was pregnant with my first son, I began to take 
prenatal vitamins and supplements and found that I felt better 
than ever before. I continued to take dietary supplements after 
my pregnancy to benefit from the essential nutrients that I 
knew I couldn't get from food alone, even though I am very 
committed to a healthy way of eating. But I was lucky enough to 
have a doctor who not only understood the value of dietary 
supplements, he also encouraged me to use them to maintain my 
health. Not everyone is that lucky, however, and many doctors 
have no idea what supplements are best for their patient's 
individual needs.
    Since then I have taken dietary supplements every day, and 
I would recommend them to my family and friends as well as in 
my books and classes. The general public needs more access to 
dietary supplements to maintain good health. Supplements are 
the result of American research and development, but for some 
reason they have been stigmatized by the American Medical 
Association and the drug companies, and, as a result, most 
Americans do not have access to those supplements because they 
are not covered by their health plans, nor recognized as 
effective by the Federal Government.
    I think this needs to be changed. People need to be able to 
find the supplements to target their specific needs. They need 
good information. They need to be able to find quality 
products, and the product needs to be cost-effective. They 
can't have any of these things without your help.
    I have the benefits of 26 years of research and 
experimentation, and I have never been afraid to think outside 
the box when it comes to my health, but I only wish I had that 
information when my parents were alive, because I know I could 
have helped them and saved their lives.
    In closing, I want to thank the committee for examining the 
issue and inviting me to speak here today. I would like to 
encourage you to make this information on dietary supplements 
available to all Americans so that the health of the American 
public can be improved. And I wish you the best of health.
    [The prepared statement of Ms. Henner follows:]

    [GRAPHIC] [TIFF OMITTED] T8293.045
    
    [GRAPHIC] [TIFF OMITTED] T8293.046
    
    [GRAPHIC] [TIFF OMITTED] T8293.047
    
    [GRAPHIC] [TIFF OMITTED] T8293.048
    
    Mr. Burton. You know, I am going to use a different kind of 
metaphor to make this next statement. That is, you know, when 
we were attacked on September 11, we at that point didn't have 
the ability to arrest and hold a suspected terrorist before the 
act took place. There had to be probable cause, you know, all 
of the things that you do. And we ended up passing what was 
called the Patriot Act, so that if we saw a terrorist, we could 
get him and hold him until we checked him out to make sure that 
he didn't kill 10,000 or 12,000 people.
    And that brings me to the issue we are talking about here 
today, and that is health. My son-in-law is a doctor, and most 
doctors are taught to take care of people who become sick. But 
they don't move in advance to help them with preventive 
medicine, because they are not trained that way. They are not 
trained to say take these supplements, take these things, and 
you probably won't have the kind of maladies that you may be 
heading for.
    And it seems to me in our medical schools, in addition to 
what we have been talking about here today, and we talked about 
this at other hearings, that the medical colleges and 
universities around the country ought to be teaching diet, 
supplements, nutrition and everything right along with the 
medical studies so that they minimize the amount of people that 
have to come to them in the first place. And I think we would 
have a much healthier Nation.
    Unfortunately, that's not the case. We have the cart before 
the horse. You get sick, then you go to the doctor and he gives 
you prescription drugs, many of which help but don't solve the 
problem, because the problem started earlier. So I agree with 
what you said, and that's why we are sponsoring all of the 
legislation we are to try to give people the ability to get 
vitamins and minerals and supplements that will help them in a 
preventive way from getting these diseases.
    Dr. Dobson, you provided us with some very significant cost 
savings in the findings of your studies. Would you say that the 
cost savings for calcium and folic acid are conservative? And 
would you also agree that even more savings could be achieved 
by people using them?
    Mr. Dobson. Yes, they are very conservative estimates, for 
two reasons, No. 1, we assumed that most people wouldn't take 
either the calcium they should or the folic acid they should. 
If more people took each of those supplements, our estimates 
would rise.
    If we had public policies that encourage people, as Marilu 
has suggested, to get more people to take more folic acid, we 
would reduce more neural tubes defect than we estimated in our 
studies, which would increase the savings similarly with the 
calcium.
    Second, we only took the major healthcare savings 
associated with both calcium and folic acid. And as you have 
heard from your panel, there are many other potential savings 
that one might have. We didn't cost those, because the research 
isn't quite there yet, but it may very well be in the future. 
So I think for those two reasons at least, our estimates are 
very, very conservative.
    Mr. Burton. You also stated that omega 3 fatty acids, 
glucosamine and saw palmetto, that there's emerging evidence 
that suggests there's going to be significant cost savings for 
those as well. What types of research would have to be 
conducted to help determine if there would be economic benefits 
from those supplements?
    Mr. Dobson. I think that the research already in place, the 
clinical trials under way by FDA and others at other Federal 
agencies, may be powerful enough in the next couple of years to 
allow the cost estimates to be made. We won't know until we get 
the studies, of course, but it's these very carefully 
controlled studies that take time and money to put in place. We 
need more of those for our supplements.
    The government is, as we heard from Dr. Coates, is well on 
its way to providing those types of studies. We are focusing 
now in those areas where there's a long trail already of 
evidence that's out there, and a few additional studies may be 
what we need to take us over the top to be able to say, yes, 
these are supplements that we can now have confidence that they 
do improve health to the point where we can calculate cost 
benefits.
    Mr. Burton. Let's see, Dr. Blumberg, in your testimony, you 
state that all women capable of becoming pregnant need to 
consume folic acid on a daily basis. What would you recommend 
is the best method of obtaining folic acid besides eating 
liver, mushrooms, dried greens or green leafy vegetables. Would 
just taking a folic acid pill be sufficient?
    Mr. Blumberg. Well, I would point out--it's not nearly my 
view, but the view of the Institutes of Medicine and the CDC--
that the most effective, reliable and practical way to insure 
that enough folic acid is consumed to reduce the risk for 
neural tube defects is to take a dietary supplement containing 
400 micrograms of folic acid.
    It's just, hands down, the most realistic way to do it. The 
reason that many women don't, indeed as I stated, two-thirds of 
American women in this group do not use supplements containing 
folic acid, is they are not getting the recommendations from 
their health care providers that this is an appropriate thing 
for them to do. It's really part of the preventive nutrition 
issue that you were raising. This advice, which is actually 
official government advice, is still not being picked up by 
health care providers by physicians, dieticians, pharmacists 
and others to encourage women to do this.
    Mr. Burton. Is folic acid one of the most practical ways to 
insure good health?
    Mr. Blumberg. Well, folic acid, I like to think, is a very 
important vitamin, but it's certainly not the only one. I would 
point out, for example, that folic acid works in conjunction 
with other B vitamins, like vitamin B6 and vitamin B12 to lower 
homocysteine, which I mentioned is an independent risk factor 
for cardiovascular disease.
    As Dr. Coates mentioned, there's some exciting new research 
that suggests that increasing our intake of folic acid may 
reduce the risk for age-related dementias like Alzheimer's 
disease. Recent research studies at Tufts University have shown 
that people with elevated homocysteine levels which can be 
lowered by folic acid supplements, have fourfold higher rates 
of Alzheimer's disease than people with low homocysteine 
levels. So I think the promise of folic acid, together with 
other essential vitamins and minerals, holds tremendous promise 
for promoting health and reducing our risk for many chronic 
diseases.
    Mr. Burton. Well, I would like for all of you, as I said 
before--I would like for all of you, if you would, to give me a 
list of the essential vitamins that people should take so that 
they--I personally would like to know.
    I have drawers of items. I can't possibly take them all. I 
think that's one of the shortcomings that people have when they 
start deciding what is best for them. Because every article 
that you read says this does this, this does this, and this 
does this. And clarity in your health, I think, providing for 
your health, I think is very important. So I would like some 
advice from you folks, and I have been taking these things for 
a long time.
    Dr. Levine, as part of your both written and oral 
testimony, you stated that Americans are not getting the 
recommended daily intake of calcium that they need on a daily 
basis, just through the foods they eat, that they are eating. 
Can you tell us the benefits that we are getting as a society, 
how it could reap more benefits if individuals supplemented 
their diets with calcium and what kind of calcium are we 
talking about, are you talking about CalMax or things like 
that?
    Ms. Levine. Well, they are. Well, first some people should 
get some calcium from their diet. Typically they get it from 
dairy foods, certain leafy vegetables like cal-fortified foods, 
such as fortified orange juice. They can get it from fortified 
cereals. But really most people are unwilling or unable to get 
the 1,200 milligrams they need, and that's for both men and 
women.
    That's if you translate it into dairy products, that's four 
glasses of milk a day--and most of us are saying low fat or 
skim milk a day--but most of us are unwilling or unable to do 
that. So you can get it from calcium carbonate, calcium 
citrate. You really do not want to go to bone meal or dolomite 
that are contaminated with things like lead or arsenic.
    And the coral calcium issue is one that I don't even want 
to go into.
    Mr. Burton. Why not? Wait a minute. I want you to go into 
the coral calcium issue.
    Ms. Levine. Because they were advertising that as having a 
high absorption rate of 69 percent. We know that most calcium, 
like carbonate or citrate, according to Dr. Heeney, who is a 
calcium expert, shows that most calcium is absorbed like milk 
at about 30 percent. So they did not do the calcium studies on 
coral calcium.
    Mr. Burton. Well, you are not saying coral calcium is not 
good, it is just----
    Ms. Levine. There is no way that it has an absorption rate 
of 69 percent.
    Mr. Burton. But it's not bad?
    Ms. Levine. I don't think we have the studies. We really 
need good double blind placebo-controlled studies. Most of the 
studies that I am involved in, either at Cornell or the 
Rockefeller or Strand, are in our clinical research center 
where we typically--I should say it this way--incarcerate our 
patients. They stay in the hospital. We control everything that 
they eat and drink.
    Mr. Burton. But you haven't studied coral calcium yet?
    Ms. Levine. We do. We just finished a study on calcium, 
using calcium carbonate in patients that were at high risk for 
colon cancer.
    Mr. Burton. Uh-huh.
    Ms. Levine. Those data are not quite complete yet, so we 
will have----
    Mr. Burton. What about the coral calcium?
    Ms. Levine. We didn't use coral calcium.
    Mr. Burton. You haven't studied it?
    Ms. Levine. No, we haven't studied it.
    Mr. Burton. All right. Could you further explain the 
benefits of omega 3 fatty acids for all Americans?
    Ms. Levine. Yes. As I mentioned with children, it starts at 
the very beginning. Mom gives DHA by the placenta in the third 
trimester of pregnancy to her baby, and then if she is nursing 
her baby, she will give DHA to her baby.
    However, as Americans, we have the lowest levels of DHA in 
our breast milk. That's because we do not eat fish, and we 
don't eat organ meats--and you mentioned you don't like liver. 
Typically, we used to eat more organ meats.
    It's in liver, it's in brain. Remember that brain is made 
up of 60 percent fatty acids and 30 percent of which is DHA or 
decosahexaenoic acid, and it's also very concentrated in the 
retina. So, babies that get DHA have better cognitive function 
and visual acuity. And it's also in the heart muscle. So that 
we really need to have it throughout all stages of life.
    And now, through the Framingham study, you mentioned that 
too, it's been shown that patients that have low DHA levels in 
their serum and then on autopsy in their brain have higher, 
higher incidence of Alzheimer's disease or dementia. So we need 
it throughout our life cycle. So it's very, very important. And 
I mentioned, we soon will have results in a primary--prevention 
trial with DHA. And that, again, is in a study that we gave 
everything that the patients had to eat and drink in our 
clinical research center.
    The only thing that was different is that they were either 
on placebo or on DHA supplementation while in the hospital for 
6 months. So it was a long-term study, and we will have the 
results shortly.
    Mr. Burton. Well, if I have to choose from eating a 
supplement that contains DHA or eating brains----
    Ms. Levine. I'm sorry.
    Mr. Burton. I said if I have to choose between eating a 
supplement that has DHA or eating brains, there's not going to 
be any question.
    Ms. Levine. Me too.
    Mr. Burton. Mr. Balbert, were you surprised by the $15 
billion in cost savings and healthcare expenditures that were 
derived from the results of the study conducted by the Lewin 
Group?
    Mr. Balbert. I was delighted with the cost savings.
    Mr. Burton. Were you surprised?
    Mr. Balbert. Not really. Just putting a number to something 
that we have, I think, intuitively understood in the industry, 
was a pleasure and a relief. The fact of the matter is that's 
just a quantification of a specific ailment, and I happened to 
put a great deal of value in the quality of life of dietary 
supplements.
    One other comment, chairman, you have expressed a number of 
times in your comments about the angst that you have with the 
volumes of dietary supplements that you take and the difficulty 
that you have in finding out what is right for you. The 
industry has a very simple guideline on that. We suggest that 
everybody should take one multivitamin and mineral formula as a 
base of any healthy nutritional program, and then based upon 
the additional body functions that you are looking for 
sufficient nutritional support from--whether it be eye health 
such as lutein or insulin balance, which is chromium--you would 
then build around your multivitamin formula.
    That, along with a good healthy life-style with plenty of 
sleep and rest, and you will live to that 170 that you were 
talking about.
    Ms. Levine. And laughter.
    Mr. Balbert. Oh, yes, and laughter.
    Mr. Burton. OK. All right.
    Your organization, the Dietary Suupplements Education 
Alliance, in your Web site and mailings to Capitol Hill have 
helped to educate Members of Congress on the benefits of taking 
dietary supplements.
    Do I then assume correctly that it is critical that the 
DSHEA be preserved and not amended?
    Mr. Balbert. Absolutely, Mr. Chairman. We don't believe 
that there needs to be any modification for DSHEA. The Federal 
Food and Drug Administration has all the authority that they 
need. What they need to do is to encourage and implement the 
DSHEA, all the grounds that are necessary at this time. DSHEA 
does not need to be modified.
    Mr. Burton. Our health agencies have the tools necessary to 
police that?
    Mr. Balbert. By their open admission and testimony----
    Mr. Burton. I think they have the tools today, yes. Well 
there are those in Congress and in health agencies that want to 
junk DSHEA, as you probably know. I just want to admonish those 
that are interested in the health care field and the supplement 
field, and that they stay vigilant in contacting their 
Congressmen and Senators, not just Representative Kucinich, 
myself and Hatch and others. But contacting them and telling 
them how important it is, we don't tinker with DSHEA.
    Ms. Henner, you stated in your testimony--you just stated 
that eating healthy is not enough and that you believe that 
dietary supplements need to be a part of your and everyone 
else's daily regimen.
    Tell us a little bit about what you take and why you think 
supplements are so important to you?
    Ms. Henner. I take a multivitamin called Comprehensive 
Formula that I actually helped develop. I take vitamin E, I 
take calcium. I do take coral calcium. And I do take a calcium 
called Bone-Up and I--because it's vegetarian.
    Mr. Burton. You are vegetarian?
    Ms. Henner. I am what is known as pesca vegetarian. Because 
I eat some fish, although I have been, I eat, you know, a 
little bit of fish, but I mainly eat whole grains, fruits, 
vegetables, legumes. So I have a very strong plant-based diet. 
I have just a----
    Mr. Burton. You don't drink a lot of milk?
    Ms. Henner. No, I never drink milk. My children have never 
had milk. They are 8 and 10 years old. They are both in a 
gifted school. They have both skipped a grade. And they have 
strong bones. They are both athletes. They are incredible. My 
children have never had a dairy product in their life. And I 
haven't had one for 26 years. So----
    Mr. Burton. Why is that?
    Ms. Henner. Because the only thing dairy is supposed to do 
is turn a 50-pound calf into a 350-pound cow in 6 months. It's 
true. I always tell people if those are your aspirations, knock 
yourself out.
    I mean, we have a 27-foot long intestinal track in a very 
small stomach. A baby calf has four stomachs and 9 feet of 
intestines, and they have nothing to do with each other. So we 
are not even, you know, I think that dairy is one of the worst 
calcium carriers ever. Now, it doesn't even, you know, resemble 
the milk of old. It is really just a white bovine slime, as far 
as I am concerned.
    Mr. Burton. Wait a minute, I will get there. White bovine 
slime.
    Ms. Henner. Bovine slime, it's--you know, I read people's 
faces, I go up and I can always tell somebody who has an 
overconsumption of dairy products. Because that was my problem.
    I always ate a lot of dairy products, and when I gave them 
up, my digestion changed, my skin changed, my weight changed. 
Everything changed about my body.
    So I am a big advocate of people looking to alternatives to 
dairy products. Because two-thirds of the country doesn't even 
eat dairy.
    So, anyway, the other things that I take are I take 
pycnogenol, which is an antioxidant. And I also take--but I 
work with a nutritionist in Los Angeles, who tests me from time 
to time, and also note from, based on my schedule, and based on 
if I am traveling, etc., I need to make adjustments along the 
way.
    So, you know, I am lucky enough to have found someone to 
work with who puts me on different programs from time to time. 
Excuse me. Does that answer your question?
    Mr. Burton. I think so. Bovine slime.
    As an author of six books promoting a healthy lifestyle, 
what recommendations would you make to Americans so that they 
can make better healthy choices?
    Ms. Henner. You mean in terms of food or supplements or 
both?
    Mr. Burton. Both.
    Ms. Henner. Well, I think definitely think, you know, you 
are a real person, eat real food. They should start reading 
labels. That's always where I start with people. Because 
anything that takes a paragraph, you know, this big to 
describe, or says continued on the next can, you probably 
shouldn't be eating it.
    With my children, I always say if you can't read it, don't 
eat it. I always start there. And so I always have people start 
there. I also think that you should--the American public really 
needs to change their palate, because it's really not about 
counting, it's not about measuring, counting, you know, it's 
not about measuring, weighing, counting the points, grams, 
carbs, etc., of the same old food. That is not going to make 
somebody healthy or thin or fit.
    And the other thing is, I think that everyone needs a good 
daily multivitamin to start. And as Mr. Balbert said, you start 
there and then you build from there.
    And then depending on your genetic hand. I knew that my 
parents--having died of arthritis and heart attack, that I had 
to, I looked into those diseases thoroughly and started taking 
the calcium and vitamin E and, you know, Pro-EPA is the fish 
oil, the one that I take.
    Mr. Burton. Besides buying your book what other things can 
we do to educate the public?
    Ms. Henner. Well, that's an excellent start. You know what. 
I always say I educated myself. I started this in 1978 after my 
mother died, and I went to medical libraries and research 
departments and took human anatomy classes and went to health 
food stores. And there was not a lot of information.
    I think what we have to do is we have to get the 
information out there to people, because once you know, you 
can't choose not to know anymore. And this is why I am, you 
know, an actress who goes out talking as much as I do about 
health. Because I think people need to be educated.
    So I think what people also need to do is also get off 
their butts and stop stuffing their faces but starving their 
bodies with the same old junk over and over again. Because 
that's exactly what is happening. Their bodies can't even 
ignore the nutrients in the food, and there's no nutrients in 
the foods, they choose so they keep overeating and overeating 
and overeating.
    I always look at someone who has either a weight or skin 
problem, and I always say that's a natural healer. Because 
their body is telling them that they are doing something wrong. 
So I really think that what people have to do is rediscover the 
child in themselves, get out there and exercise, find a good 
doctor who can work you, know enough about your body so that 
you can help your doctor help you and educate yourself as much 
as possible. And eat lots of fruits and vegetables.
    Mr. Balbert. Mr. Chairman, the DSEA has created a very 
comprehensive Web site called supplementinfo.org, which is 
extremely exhaustive in providing information to the American 
public and access.
    Mr. Burton. Give me that again.
    Mr. Balbert. Supplementinfo.org contains over 2 million 
pages of information on the use of dietary supplements. It is 
ad nauseam in terms of--the information is there.
    Mr. Burton. I want a one-page, one pager.
    Mr. Balbert. We will have it prepared for you, Mr. 
Chairman. I can assure you.
    Mr. Burton. I want you to write down something for me 
saying Dan, you can do this, and you are going be all right. 
All right?
    Mr. Balbert. Mr. Chairman, consider it done.
    Ms. Levine. I think other responsibilities organizations, 
such as the Heart Association, American Diabetes Association, 
of course the NIH Web site, they are excellent Web sites to go 
to.
    Mr. Burton. Sure. Do you know how many pieces of paper. 
Representative Watson and I, how many documents we have to look 
at a day. Do you know how many pieces of documents we get each 
day and constituents asking us to pass to the White House and 
people asking us to get their kids appointed to the Air Force 
Academy or West Point or God only knows, Social Security, 
veterans problem, we really, I am not asking for sympathy. I 
asked for this darn job a long time ago, but we really don't 
have time to go into a million pages here.
    Mr. Balbert. Of course not.
    Mr. Burton. But I will say give me the KIS principle, keep 
it simple.
    Mr. Balbert. I will kiss you, Mr. Chairman.
    Mr. Burton. No, thank you. Maybe Marilu Henner.
    I just want to say first of all, your enthusiasm, Ms. 
Henner is very helpful, very nice.
    Ms. Henner. Thank you, this is my true passion, I was there 
yesterday at the dietary guidelines open public forum talking 
about--you know.
    Mr. Burton. Yes. I appreciate all of you panelists, I just 
want to tell you, we had a hearing about a week ago, was it, on 
obesity in America, and 31 percent of the people of this 
country are overweight. No. 65, 65 percent of the people of 
America are overweight and 31 percent, almost 1 out of 3 
people, are considered to be obese.
    I just got back from Guam and Saipan not too long ago, and 
they have an absolute epidemic of diabetes over there. I think 
we had a doctor before us at our last hearing and he said if we 
don't change our dietary habits in this country, one out of 
three children will develop diabetes in their life, newly born, 
one out of three.
    I mean, we are looking at an absolute epidemic if we don't 
educate the public about eating habits, junk food--and then 
they start saying that the average child in a year sees about 
10,000 commercials--and I started watching children's 
commercials and my God, Little Benny's chocolate wafers, you 
know, and all the stuff you see is nothing but junk food, junk 
food, junk food. And a bit of that is all right. But somehow, 
we have to educate the public, that they ought to create better 
food products and advertise them the way that make people want 
to eat them so that they get healthy. Otherwise, we are going 
to be paying so much money in health care cost, it's not even 
funny.
    Ms. Watson is with us, she is my ranking democrat and a 
very fine lady who is really concerned about health foods. 
Would you like to make a comment?
    Ms. Watson. I thank you, Mr. Chairman. I am going to give 
my opening statement, because I think it frames my interest and 
concern. Natural foods and supplements are very important to a 
healthy population. If one understands what should go into the 
body, then it is possible to live a healthier and more 
productive life. Breast milk nurtures an infant and promotes 
accelerated learning.
    Vitamins and minerals give cells and organs the proper 
building block for optimal performance. There are some 
supplements that have been proven to be very effective, for 
example, pregnant women are advised to take folic acid to 
reduce the risk of certain birth defects. And calcium 
supplements have been demonstrated to reduce the risk of 
osteoporosis. Certain herbs and trace elements also have 
medicinal values and sickness-preventing properties.
    Mr. Chairman, I am encouraged with the aggressive outreach 
and research initiated by the natural food and supplemental 
industry.
    But there is room to do much more. The natural foods and 
supplement industry can help increasing numbers of Americans to 
take charge of their own health. They can assist our 
constituents in adopting healthier lifestyles that include a 
good diet, exercise, supplementation and becoming more educated 
about all of these.
    The Dietary Supplement Health and Education Act is a very 
important piece of legislation, and prior to its enactment, the 
FDA regulated dietary supplements as food. Because 
manufacturers claims are often promising and completely 
positive, Congress created guidelines to address supplement 
definition, safety concerns, ingredient and nutrition labels, 
supplement claims, good manufacturing practices and new dietary 
ingredients. In addition, the DSHEA created a supplement 
Commission and an office of dietary supplements at the National 
Institutes of Health. Over the past few years, there have been 
several media stories of supplements causing adverse effects.
    Natural nutrients are nothing to be scared of, but they 
should be respected, treated with care and used properly. Since 
the enactment of DSHEA, the FDA has issued alerts on several 
supplements to warn consumers of possible safety problems.
    In other examples, the FDA has issued alerts about a 
possible liver toxicity with kava-containing dietary 
supplements, dangerous interactions between Saint John's Wort 
and a number of prescription drugs and serious kidney disease 
and some cancers from herbal supplements containing aristolic 
acid.
    Until recently, the FDA has only invoked its authority to 
declare a supplement altered. In December 2003, the FDA 
declared that Efedra, a dietary supplement that was marketed 
for weight loss and was associated with serious adverse events, 
including heart attack, stroke and death, presented an 
unreasonable risk of injury. The courts are currently reviewing 
this action, and courts should not decide the risks and the 
efficacies of a dietary supplement at all.
    On the contrary, the scientific community should reach a 
well-founded conclusion.
    And, Mr. Chairman, you mentioned that several of the 
island, Guam and other areas of the north Pacific and South 
Pacific are now seeing the rapid development of being diabetic.
    Mr. Burton. Diabetes.
    Ms. Watson. I am thinking of so many other things. And I 
remember going to the Far East early--earlier on, and there 
wasn't a dentist around, and going back decades later, now 
there's a dentist on every corner. Why? Because they have 
started consuming western DSHEA style foods. And I think that 
is a sad commentary on how we are promoting our bad dietary 
habits around the world.
    And so I hope that we will have other hearings on this 
issue, because I do believe that of dietary supplements have an 
essential role to play in today's world. And I look forward to 
other hearings. I'm sorry I am late. I am sitting in another 
committee at the same time. So thank you very much, Mr. 
Chairman, for this opportunity.
    Mr. Burton. You are welcome. Before we adjourn, let me say 
we regret Ken Venturi wasn't here with us. Ken Venturi won the 
U.S. Open here at congressional under very stressful conditions 
years ago, he is one of my heroes, I have had a chance to get 
to know him and meet him a little bit. So I hope somebody will 
convey to Mr. Venturi our sorrow that he couldn't be with us. 
He has a book out, and I am hoping I get a copy of it. I would 
like to read it, not only on supplements but golf. I am a golf 
nut.
    We have had some other people who are very interested in 
health care issues and supplements. Arnold Schwarzenegger--I 
talked to him on the phone--we were going to have him testify 
at one time, shortly after he had open heart surgery, and I 
asked him, this might be interesting to a lot of people who are 
interested in the supplement field. I asked him if he thought 
that supplements benefited him in the course of his surgery and 
his recovery. He said that he recovered much more rapidly than 
anybody anticipated, and he was absolutely certain it was 
because of not only his physical conditioning, but because of 
the supplements that he had been taking for years that helped 
him heal quicker.
    Of course, we have Ms. Henner here, another celebrity, we 
appreciate you being here. You are very beautiful and useful.
    Ms. Henner. Thank you very much.
    Mr. Burton. Just like when I saw you on TV.
    Jane Seymour is a very good friend of mine. In fact I think 
I am going to have lunch with Jane and James Keach, her 
husband, tomorrow. I think you know both of them. But she is a 
very, very physical culturalist, if you will, and she is also 
big on supplements as well as her sister, who I think teaches 
supplements.
    And of course, we had one lady here, who I am sure would be 
recognized as a person of great physical stature, Raquel Welch, 
and just thought that you might like to know that she takes 
supplements as well. So this isn't just limited to the plain 
people like me. I mean, you have a lot of beautiful people who 
take that stuff as well.
    Ms. Watson. Mr. Chairman, would you yield just 1 second?
    Mr. Burton. What piqued your interest there, was it Raquel 
Welch or----
    Ms. Watson. This morning, on CNN, they were talking about 
the Greek diet, and I was in Greece for the Olympics, and I 
noted that every time you went into a restaurant, there was a 
Greek salad. And I also noticed that everyone smoked there.
    And I was asking, why is it that they don't develop the 
kinds of cancers related to smoking? Lung cancer and etc.? And 
they said because of olive oil. So there are some medicinal 
properties in olive oil that we all should be looking into.
    They also talked about couscous in place of white rice, and 
they talked about the fresh vegetables. They have the best 
tomatoes in the world. So I think there are a lot of natural 
products that we get through the supplements, and they tend 
to--they say they live longer because of the olive oil. So I 
think we ought to try that and, you know, stop using butter, 
dip our bread in olive oil. Thank you, I just had to get that 
in.
    Mr. Burton. Put that on my list, will you?
    Ms. Henner. I am half Greek, I just want you to know. My 
book has exactly what they were talking about today.
    Mr. Burton. A lot of olive oil.
    Ms. Henner. A lot of olive oil. I was raised on olive oil 
too.
    Mr. Burton. Send me your list, kid.
    Ms. Henner. I will.
    Mr. Burton. Thank you, this has been very, very 
interesting. We will have more panels on this, health and 
wellness and supplements. And you have been very helpful today.
    We will send some questions to you. If you wouldn't mind 
answering them and sending them back to us for our record. 
Thank you very much. We stand adjourned.
    [Whereupon, at 11:40 a.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
